«yl(M ^ A

1/

NOT PRECEDENTIAL

BLD-290

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1575
ANDY BUXTON,
Appellant
v.

IVA C. DOUGHERTY; KATIE WYMARD; RICHARD MILLER;
CHRISTOPHER ANTONUCCI; ROBERT MARSILI; AMBER NOEL;
SCOTT SHANK; RIVERS CASINO; ATTORNEY GENERALS OFFICE;
ANDREW TOTH; DAN SAMMARTINO
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C.No. 2:15-cv-01653
District Judge: Honorable Joy Flowers Conti

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
on August 27, 2020
Before: AMBRO, GREENAWAY, JR., and BIBAS, Circuit Judges
r

(Opinion filed: September 14, 2020)

OPINION*

This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

RECEIVED
NOV 3 0 2020

OFFICE OF THE CLERK
SUPREME COURT ll c;

Rivers Casino complied and produced copies of electronic customer activity reports, trans­
action reports, and W-9s related to Buxton. Rivers Casino received a second subpoena that
sought the same information but for a different time period; Rivers Casino again complied.
A final subpoena was issued directing Rivers Casino to produce surveillance footage of
Buxton for a certain time period. Rivers Casino provided all surveillance footage that was
requested. Rivers Casino stated that it does not have any reason to believe that the infor­
mation it provided in response to the subpoenas is inaccurate in any respect.
The District Court granted summary judgment in favor of Rivers Casino. It held that
Buxton failed to prove that Rivers Casino was a state actor, which precluded liability under
§ 1983. The District Court also held that, even if Rivers Casino were a state actor, Buxton
failed to present evidence that it conspired with another actor to deprive him of his consti­
tutional rights. The District Court finally determined that Buxton failed to present evidence
of a conspiracy under Pennsylvania state law. Buxton appealed.
We have jurisdiction under 28 U.S.C. § 1291 and exercise de novo review over the
District Court’s order granting summary judgment. See S.H. ex rel. Durrell v. Lower Merion Sch. Dist.. 729 F.3d 248, 256 (3d Cir. 2013). Summary judgment is proper when there
is no genuine dispute as to any material fact and the moving party is entitled to judgment
as a matter of law. Fed. R. Civ. P. 56(a); Kaucher v. Ctv. of Bucks, 455 F.3d 418, 422-23
(3d Cir. 2006). If the moving party meets the initial burden of establishing that there is no
genuine issue, the burden shifts to the nonmoving party to “come forward with specific

relies primarily on speculation and legal conclusions. It also fails to genuinely dispute the
facts as reported in Rivers Casino’s statement of undisputed material facts.
3

H*-'

facts” showing that there is a genuine issue for trial. See Santini v. Fuentes. 795 F.3d 410,
416 (3d Cir. 2015) (quoting Matsushita Elec. Indus. Co. v. Zenith Radio Corn., 475 U.S.
574, 587 (1986)) (internal quotation marks omitted). We may affirm on any basis supported
by the record. See Fairview Twp. v. EPA, 773 F.2d 517, 525 n.15 (3d Cir. 1985).
To prevail on his claim under § 1983, Buxton must show not only that Rivers Casino
violated his constitutional rights, but also that it acted under the color of state law. West v.
Atkins, 487 U.S. 42, 48 (1988). Buxton bears the burden of proving that Rivers Casino
acted under the color of state law. Robert S. v. Stetson Sch.. Inc., 256 F.3d 159, 164 (3d
Cir. 2001). The record reveals that Rivers Casino merely responded to a grand jury sub­
poena by providing the documents that the prosecutor requested. Though Buxton stated in
an affidavit that Rivers Casino was conspiring with the state prosecutors, he provided no
evidence to support such a claim and did not meet his burden of proving that Rivers Casino
acted under the color of state law.
In any event, there is no evidence in the record (other than Buxton’s conclusory asser­
tions) that any constitutional violation occurred. Buxton claims that Rivers Casino con­
spired with the Attorney General’s Office in a scheme to cover up mismanagement at the
casino, but he has provided very weak supporting evidence of any such conspiracy.3 He
also alleged that Rivers Casino provided “inaccurate, fabricated, and incomplete” evidence
in response to the grand jury subpoenas. However, Buxton provided no reason to doubt

3 For the same reason, Buxton’s state law conspiracy claim fails. Apart from his own
speculative affidavits, Buxton provided email-exchanges between the Gaming Agent at
the Pennsylvania Office of Attorney General and various personnel at Rivers Casino.
However, the emails pertain only to trial scheduling matters.
4

that the information provided to prosecutors came directly from the casino’s electronic
management system.
Accordingly, we will affirm the District Court’s judgment. Buxton’s motion for ap­
pointment of counsel is denied.

5

hereby is AFFIRMED. Costs will be taxed against Appellant. All of the above in accord­
ance with the opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: September 14, 2020

r

“Affw D* 7? /

Case 2:15-cv-01653-JFC-CRE Document 205 Filed 01/15/20 Page 1 of 16
■rl

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
ANDY BUXTON,

)
)
)
)
)
)
)
)

/
j/

Plaintiff,
v.

RIVERS CASINO,
Defendant.

/
/

Civil Action No. 2:15-cv-1653

REPORT AND RECOMMENDATION
CYNTHIA REED EDDY, United States Magistrate Judge
I.

RECOMMENDATION

It is respectfully recommended that the Motion for Summary Judgment filed by Defendant
Rivers Casino (ECF No. 192) be granted and that judgment be entered in favor of Rivers Casino.
II.

REPORT
A. PROCEDURAL HISTORY
On December 16, 2015, Plaintiff Andy Buxton, an inmate at SCI-Mercer, filed a Motion

for Leave to Proceed in Forma Pauperis (ECF No. 1), which the Court granted on December 23,
2015 (ECF No. 3). Generally speaking, Plaintiffs civil rights complaint pursuant to 42 U.S.C. §
1983 alleged that his criminal charges (then pending) filed in Allegheny County Court of
Common Pleas were based on fabricated evidence and perjured testimony presented at his
preliminary hearing, and also that his due process rights were violated. He initially sued officials
from the Pennsylvania Office of the Attorney General. On January 8, 2016, the Court, adopting
the Report and Recommendation (ECF No. 4) as the Opinion of the Court, dismissed the
Complaint for failure to state a claim upon which relief may be granted, pursuant to 28 U.S.C. §§
1915(2)(B)(ii) and 1915A, ruling, inter alia, that Plaintiffs claims would call into question any
1

i

Case 2:15-cv-01653-JFC-CRE Document 205 Filed 01/15/20 Page 3 of 16

Rivers Casino moved to dismiss or, in the alternative, for summary judgment (ECF No. 61), and
Buxton responded (ECF No. 70). On July 23, 2018, all claims against all defendants were
dismissed with prejudice but for a claim for civil conspiracy against Rivers Casino. (ECF Nos.
113, 114).2 The court explained that although it allowed Plaintiff to amend the remaining claim
of conspiracy on the part of Rivers Casino, Plaintiff could not:
enlarge the lawsuit by filing new allegations not related to the allegations in the
original complaint or by adding defendants not related to the allegations in the
original complaint. Inclusion of new allegations and claims unrelated to those set
forth in the original complaint will be considered a failure to comply with an
Order of Court and will result in the dismissal of the claims.
(ECF No. 114). On January 9, 2019, Plaintiff filed the a complaint (ECF No. 139), entitled
“Second Amended Complaint” although it is the third complaint (hereinafter, “the Operative
Complaint”). In it he alleged, generally, “malicious prosecution, fabrication of evidence, abuse
of process, prima facie tort, conspiracy tort, negligence, gross negligence, defamation, false light
privacy, and intentional infliction of emotional distress” against “various employees of the
Pennsylvania Office of the Attorney General” and “Defendants Rivers Casino” (ECF No. 139).
The Attorney General’s Office, along with Defendants Dougherty, Wymard, Miller, Marsili,
Toth, Antonucci, Shank, Noel, and Sammartino, filed a Motion to Strike the Operative
Complaint (ECF No. 141), which was granted on January 15, 2019 (ECF No. 142), again
removing said defendants from the action. Discovery as to Buxton’s claim against the sole
remaining Defendant Rivers Casino ensued.
On September 17, 2019, Rivers Casino filed the pending Motion for Summary Judgment
(ECF No. 192) with brief in support (ECF No. 193) and Concise Statement of Undisputed

2 Plaintiff appealed (ECF No. 116) the Memorandum Opinion and Order (ECF Nos. 113, 114) to the United States
Court of Appeals for the Third Circuit. The appeal was dismissed for failure to timely prosecute insofar as he had
failed to pay the requisite filing fee as directed. (ECF No. 167).
3

i

Case 2:15-cv-01653-JFC-CRE Document 205 Filed 01/15/20 Page 4 of 16

Material Facts (“CSUMF”) (ECF No. 194). On December 16, 2019, Plaintiff filed a brief in

1

response to the motion (ECF No. 202), a response to the CSUMF (ECF No. 201) and an affidavit
dated December 11, 2019. (ECF No. 200) (hereinafter the '“Affidavit”). On October 30, 2019,
Rivers Casino filed a reply. (ECF No. 203). The matter is now ripe for consideration.
B. LEGAL STANDARD
A court shall grant summary judgment “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). A dispute is “genuine” if, based on the evidence in the record, a reasonable jury
could return a verdict for the non-moyjn&-Bartvn4ndersorrvrEiberty Lobby, Inc., All U.S. 242,
248 (1986). A fact is “material” if it might affectthe^outcome of the suit. Id. The court will view ^
evidence in the light most favorable to the non-moving party and “all justifiable inferences are to

^

be drawn in [that party’s] favorCJIunt v. Cromartie, 526 U.S. 541, 552 (1999). Federal Rule of
Civil Procedure 56 “mandates the entry of summary judgment, after adequate time for discovery
and upon motion, against a party who fails to make a showing sufficient to establish the
existence of an element essential to that party’s case, and on which that party will bear the
burden of proof at trial.” Marten v. Godwin, 499 F.3d 290, 295 (3d Cir. 2007) (quoting Celotex
Corp. v. Catrett, All U.S. 317, 322-23 (1986)).
In the summary judgment context, “inferences to be drawn from the underlying facts
must be viewed in the light most favorable to the opposing party.” Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S..574, 587 (1986). Defendants may satisfy their burden by either (1)
submitting affirmative evidence that negates an essential element of Plaintiff s claim; or (2)
demonstrating to the Court that, the Plaintiffs evidence is insufficient to#establish an essential

u, V*- h^

element of Plaintiff s case. Celotex, All U.S. at 331.
1/

rs( U&-

k L.

\„c.*
C\bd ‘-rv>Vl

<rH ftJ /3
k

m. ao/v/(5

^3 Che- /^
JkA A

,

a S’

‘

4Aa—

ft*'
adZ^Q

Case 2:15-cv-01653-JFC-CRE Document 205 Filed 01/15/20 Page 5 of 16
,
rxtL uUlly
kkAs
C*jV
QWc/ hh~ plv/ufi /L
j
ah (?7S Af^W' ^
Once the moving party satisfies its burden under Rule 56, the non-moving party “must do more

'l ^ ^£3

than simply show that there is some metaphysical doubt as to the material facts.” Scott v. Harris,
550 U.S. 372, 380 (2007). This Court is mindful of Plaintiff s pro se status and accordingly
liberally construes the documents and briefs Plaintiff has provided. See Erickson v. Pardus, 551
U.S. 89, 94 (2007); Lockhart v. Hoenstine, 411 F.2d 455, 458-59 (3d Cir. 1969) (when “plaintiff
pleads pro se in a suit for the protection of civil rights, the court should endeavor to construe the
plaintiffs pleading without regard for technicalities.”): see also Dluhos v. Strasberg, 321 F.3d
365, 369 (3d Cir. 2003) (“[The Court will] apply the applicable law, irrespective of whether the
pro se litigant has mentioned it by name.”). Nevertheless, non-movant pro se plaintiffs may not
merely “rest on speculation and conjecture in opposing a motion for summary judgment.”
Fiorentini v. William Penn Sch. Dist., 665 Fed. Appx. 229, 233 (3d Cir. 2016). Rather, Plaintiff
must support the existence of a genuine issue of material fact through record evidence, although
he may rely on affidavits. Stringer v. The Pittsburgh Police, 408 Fed. Appx. 578, 580 (3d Cir.
2011); see also Giles v. Kearney, 571 F.3d 318, 326 (3d Cir. 2009).
With this standard in mind we revip^die^viden^ ofrecord.

^

[dsi, gi"

C. FACTUAL BACKGROUND
/

At the-summary judgment stage, the facts must be construed in the light most favorable to
Buxton, the nonmoving party. The court notes the following factual summary is taken largely
from the CSUMF provided by Rivers Casino, which, unless otherwise addressed, are undisputed.
A. Undisputed Facts as Supported by Rivers Casino’s CSUMF
Rivers Casino received a subpoena from the Commonwealth Court of Pennsylvania .
Statewide Investigating Grand Jury dated September 10, 2012 (“the first grand j ury subpoena”).
(CSUMF 1). The first grand jury subpoena directed Rivers Casino to appear as a witness before
Cut

(jA^o\k (

(a V U0**7 CHfhfe-zS

/jh

1 ] 3

. At At Ai

h

^

7? 7

Case 2:15-cv-01653-JFC-CRE Document 205 Filed 01/15/20 Page 7 of 16

jury subpoena is a verbatim request for information as that which was contained in the first grand
jury subpoena, except it sought information from a different timeframe (May 1,2012 through
November 8, 2012). (CSUMF f 9). Again, Executive Secretary for the Grand Jury Angela L.
Beaverson, explained Rivers Casino could, at its option, supply the information requested at the
time of testimony or supply the information requested in advance in lieu of live testimony by
directing such information to a designated Pennsylvania Deputy Attorney General. (CSUMF
10). In its written response to the second grand jury subpoena Rivers Casino responded by
including:
records and reports generated from the Konami Casino Management System,
which tracks customer activity for registered players; copies of currency
transaction.reports related to Andy Buxton; copies of W-9s related to Andy
Buxton and Carl Buxton; a copy of a single W2-G related to Andy Buxton;
and a video report with incident log related to Andy Buxton.
(CSUMF TCI 11, 12).
Over two years later, Rivers Casino received a subpoena issued by the Honorable Donna
Jo McDaniel dated October 2, 2014 in conjunction with a criminal case in the Courtof Common
Pleas of Allegheny County, Pennsylvania Criminal Division, Andy Buxton No. 12834-2013 and
Carl Buxton No. 151-2014 (“surveillance footage subpoena”). The surveillance footage
subpoena directed Rivers Casino to provide “all video surveillance footage pertaining to gaming
activity for Andy and Carl Buxton from 2010 through 2034.” (CSUMF

13, 14). Rivers

Casino responded to the surveillance footage subpoena in writing on the same day and provided
all responsive surveillance footage in its possession. (CSUMF U 15).
Rivers Casino did not appear for, or testify at, any hearing or proceeding related to Andy
Buxton,3 and aside from providing responses to the aforementioned subpoenas, Rivers Casino

S'sck-'k

3 Buxton disputes this, as will be discussed infra.

"|lu

it1

e7U
C^OtL

J&- Jkt-J--

/£" a0
(*3

vA

Case 2:15-cv-01653-JFC-CRE Document 205 Filed 01/15/20 Page 10 of 16

surmises) but the audits and other Bureau policies are confidential under the Pennsylvania
, V.

Gaming Act and are proprietary information; Mr^Resch also explains the surveillancejtethodg
are confidential. A ^ ^ (rJ\ P^iWVI Qri} (hOM

^ ^i

In the end, were its contents to be offered at trial, the Buxton Affidavit would likely be

pot-ej&si

^admissible as it contains multiple speculative statements and allegations lacking in foundation

.

-K

,

frfWS

and conclusions of law. {Affidavit fflf 8, 16-18). Buxton mag-gSt rest upon speculation'and
Xiduu'S
hi
conjecture in his opposition to.the motion for summary judgment. Rivers Casino’s Appendix to/¥w

3

the Motion for Summary Judgment includes an affidavit of Dannielle Cisneros, previously

-J ^
Senior Counsel for Rivers Casino, in which she states, “[t]he surveillance footage provided in^
\

response to the subpoenas was a true and correct copy of the footage as captured by Rivers
Casino’s on-site camera system” and she had “no reason to believe that the information or
documents provided in response to the subpoenas are inaccurate in any respect.” (ECE No. 1941 at ffl[l 7, 18). In addition, she states, “[njeither I, nor any other Rivers Casino representative,
appeared or testified at any hearing or proceeding related to Andy Buxton. (ECF No.. 194-1 at
<J<aT*

A

115).
5,(4, ttXi,

ifiis nm, win. SWJ, q w

Next, we address Buxton’s Response to the CSUMF. Buxton’s Response largely mirrors
his Affidavit in terms of its speculation and conclusory nature. First, we note that Plaintiff s
Response admits to the CSUMF at paragraphs. 1-3, 7-9, 13-14 (ECF No. 201). There are a total
dUfS'jkf^ /r<(oiV/A.
of twenty-two paragraphs in the CSUMF. Fie repeats the wild speculation that the disclaimer
that the casino “makes no representation as to either the accuracy of this information or its

/iff//

*

fa F 'If /vd*

effectiveness as proof of losses” vis. his gambling activity sdSajESow shows an-mten#on4A
ct cfM^didpy
dfn
VI*
provide rnfrs-kadiag-er-maocwate-rmKrrmation-. (Response at fflf 6, 12). He also speculates that
documents, reports and records were inaccurate and aiakes-CQfichrT^nrst-atem.ea-ts~t^at the casino

flmfa <*UtS /iuf

£4<( fuU vf
J;
^

zCfeksji

5^/s Ay /U p/jo/w /

{-aA i'kf

W L

0^'i)dioi<b wf ^iUz0?/,

u

i

p

Jzfafaf

pi ^ H-tv- tiOb'lS, 2>l % &S, $) (S<

* I iUj, liJoib)(oif.tffaj

(J«rcnJ\*yo7J:l App'*

Case 2:15-cv-01653-JFC-CRE Document 205 Filed 01/15/20 Page 11 of 16

1
If*'
b.
f£,°
iVJ

violated his rights, as well as makes conclusorv allegations-that- the videotaped footage does not
til

ateh the evidence and the casino influenced the decision to prosecute.

Such

ion is

4, 5, 10, 11, 15-22).

record evidence. For these reasons, the court relies on the CSUMF as

*

4^1

u«

presented by Rivers Casino.

f

&

Next, we address whether there is a genuine dispute of material fact such that a
reasonable jury could return a verdict in favor of Buxton.
D. DISCUSSION
The sole remaining claim against Rivers Casino is that it conspired with others to falsify
records and/or inadequately maintain evidence in relation to Buxton’s criminal prosecution or
criminal proceedings in the Court Common Pleas of Allegheny County. Rivers Casino argues
that judgment should be entered in its favor because the uncontroverted record evidence
establishes that it merely responded in good faith to valid subpoenas by providing the grand jury
and state court with requested documents, and had no further involvement in Buxton’s criminal
matters thereafter.
1. § 1983 State Action ^ ^

drib-

f

__

,

A ^

™
r ^7 bbZyy

/A u C

1

The Supreme Court has set forth the two essential elements of a § 1983 action: “(1)
whether the conduct complained of was committed by a person acting under color of state law;
and (2) whe' her this-conduct deprived & person of rights, privileges, or immunities secured by the
Constitution or laws of the United States.” Parrattv. Taylor, 451 U.S. 527, 535, 101 S.Ct. 1908,
1912, 68 L.Ed.2d 420 (1981), overruled in part on other grounds by Daniels v. Williams, 474
U.S. 327, 106 S.Ct. 662, 88 L.Ed.2d 662 (1986); see also Adickes v. S.H. Kress & Co., 398 U.S.
144, 150, 90 S.Ct. 1598, 1604, 26 L.Ed.2d 142 (1970).

1
, y
jfuV'T

Case 2:15-cv-01653-JFC-CRE Document 205

Obviously, Rivers Casino is not a state actor. Under the case precedent, however, a private
party can be held liable for violation of an individual's § 1983 rights; importantly, the individual
alleging such a violation is not relieved of the obligation to establish that the private party acted
under color of state law. “[T]he inquiry must be whether there is a sufficiently close nexus
between the State and the challenged action [of the private party] so that the action of the latter
may be fairly treated as that of the State itself.” Jackson v. Metropolitan Edison Co., 419 U.S.
345, 351, 95 S.Ct. 449, 453, 42 L.Ed.2d 477 (1974). Under toe facts of this case, the

«\V(

determination of whether there has been state action would be based on whether “the private
party has acted with the help of or in concert with state officials.” McKeesport Hospital v.

V

✓

Accreditation Council for Graduate Medical Ed., 24 F.3d 519, 524 (3d Cir.1994). Thus, in

A

Adickes, the Court held that a conspiracy between a private party and a state official to engage in
unlawful discrimination constituted action ‘“under color’ of law for purposes of the statute.” Id.

.

, ^ -t
J
v>

at 152, 90 S.Ct. at 1606. Similarly, in Lugar a private party's prejudgment attachment of another jf fy,
party's property, pursuant to a state statute, constituted state action under § 1983. Lugar v.

l>

Edmondson Oil Co., Inc., 457 U.S. 922, 941^12, 102 S.Ct. 2744, 2756 (1982).
tn Jt*

Buxton has asserted that employees of Rivers Casino sat in court during his trial, which
Rivers Casino disputes. Buxton also cites to a series of emails from October 2014, June 2015
and April 20 i 6 between Robert Massif, the Gaming Agent at the Pennsylvania Office of
aS *<Jl\ a-S t-

to11

•Af

scheduling matters. The record lacks a showing of a sufficiently close nexus between the state
actors and Rivers Casino such that it could be said to have acted with the help or in concert with
state officials. Having failed to make a showing sufficient to establish the existence of the

Of /)'

0 yCodK
^j, 0<y
*1

t fj’

4**

10 *

j.Ul

^

°i*8

12
c

»

lf}6

od"'

Case 2:15-cv-01653-JFC-CRE Document 205 Filed 01/15/20 Page 13 of 16

element of state action, there is no genuine dispute of material fact on this element of state
action.
In addition, “[i]n order to demonstrate the existence of a conspiracy under section 1983,
‘a plaintiff must show that two or more conspirators reached an agreement to deprive him or her
of a constitutional right under color of law.’” Royster v. Beard, 308 F. App'x 576, 579 (3d
Cir.2009). There is no record evidence to support a genuine dispute of material fact as to an
agreement on the part of the casino and a co-conspirator to- deprive Buxton of his constitutional

^ Jh4j**vjk
This complete failure of proof on an essential elements of plaintiff s § 1983 claim entitles
Rivers Casino to summary judgment as a matter of law. Celotex, All U.S. at 322-23, and
therefore, it is respectfully recommended that summary judgment be granted, in favor of Rivers

- fUfr
°^S"K
jufydr Skit

O^-f
9<-

/

f

,

' /5--S

to W
kc

,

lS
Id

2. Claim for Conspiracy under Pennsylvania law

.

^

«<<*•,/*,id

Both Rivers Casino (ECF No. 193 at 7) and Buxton (ECF No. 202 at 3) have included. /(, ,/,
arguments relating to a claim for conspiracy under Pennsylvania state law,4 which arguably
remained viable after the Court’s ruling on the Motion to Dismiss. (ECF No 114).
A predicate to any civil conspiracy claim is the presence of an underlying tort. See
McGreeyy v. Stroup, 413 F.3d 359, 371 (3d Cir.2005) (citing Boyanowski v. Capital Area
Intermediate Unit, 215 F.3d 396, 405 (3d Cir.2000)). The plaintiff argues that Rivers Casino
Xi.Att'Y ^
Aok’/n o/

4c**' cycO/njAi fn(tv/A-ite fs &stUto*dle,
floC/pH/ 1
*jf *??/>

/n

ht RL

<h

4“[A] district court[ ] may decline to exercise supplemental jurisdiction over a claim ... if... the district court has
dismissed all claims over which it has original jurisdiction ...” 28 U.S.C. § 1367. “The decision to retain or decline
jurisdiction over state-law claims is discretionary” and “should be based on considerations of judicial economy,
convenience^] and fairness to the litigants.” Kach v. Hose, 589 F.3d 626, 650 (3d Cir. 2009) (citations omitted).
Here, because Plaintiffs federal and state law claims relate to the allegedly unlawful conspiracy to deny him of his
rights, and furthermore given that this case was filed in 2015, has been on appeal and remanded, and has proceeded
through discovery, it is appropriate to exercise supplemental jurisdiction over Plaintiffs remaining state-law claim
as a matter of judicial economy and fairness.
13

trA)

£

Case 2:15-cv-01653-JFC-CRE Document 205 Filed 01/15/20 Page 15 of 16

%_ fey

WK

q C' JaC l

Ur»

K

cT H hufar^H.fl

Jf/K.

conspiracy.” Commerce Bank/Pennsylvania v. First Union Nat. Bank, 911 A.2d 133, 143
(quoting Thompson Coal Co., 412 A.2d at 472). “Malice requires ... that the sole purpose of the
conspiracy was to injure the plaintiff,” and that this intent was without justification. Doltz v.
Harris & Assoc., 280 F.Supp.2d 377, 389 (E.D. Pa. 2003) (emphasis added). Because malice can
only be found when the sole purpose of the conspiracy is to injure the plaintiff, a showing that a
person acted for professional reasons, and not solely to injure the plaintiff, negates a finding of
malice. See Bro-Tech Corp. v. Thermax, Inc., 651 F.Supp.lci 378, 419 (E.D. Pa. 2009);
Thompson Coal Co., 412 A.2d at 472 (noting that the intent to injure must be absent justification,
which cannot exist when an act is merely done “with the intention of causing temporal harm,
without reference to one's own lawful gain, or the lawful enjoyment of one's own rights”)
(quoting Rosenblum v. Rosenblum, 320 Pa. 103, 181 A. 583, 585 (1935)).
Thus, to survive summary judgment, a plaintiff bringing a civil conspiracy claim must
produce evidence to establish that the defendant acted in concert to commit an unlawful act or do
a lawful act by unlawful means, and he acted with malice. Commerce Bank, 911 A.2d 133, 143
(citing Skipworth by Williams v. Lead Indus. Ass'n, 547 Pa. 224, 690 A.2d 169, 174 (1997)). The
elements of civil conspiracy may be proven circumstantially, so long as the evidence is “full
clear and satisfactory.” Rumbaugh v. Beck, 411 Pa. Super. 220, 601 A.2d 319, 327 (1991)

^A^ /// cleg/

(internal citations omitted).
*3o

Setting aside the self-serving allegations in the Affidavit, and after, a careful review of the
record,_and viewing it in the light most favorable to the non-movant, no reasonable factfinder
could conclude that Buxton has supported his claim of a civil conspiracy. Rivers Casino
respond^. to valid subpoenas afrd provided the grand jury and state court with requested
documents, and hadjaajurtherjnvolvement in Buxton’s cases. T

15

A

^

■d evidence that

X

Case 2:15-cv-01653-JFC-CRE Document 210 Filed 03/04/20 Page 1 of 7

___ IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
ANDY BUXTON

)
)
)
)
)
)
)
)

Plaintiff,
v.
RIVERS CASINO,
Defendant.

Civil Action No. 2:15-cv-1653

MEMORANDUM OPINION
Introduction
This case was referred to a United States magistrate judge for pretrial proceedings in
accordance with the Magistrate Judges Act, 28 U.S.C. § 636(b)(1), and Local Rules of Court
72.C and 72.D.

On January 15, 2020, the magistrate judge entered a Report and

Recommendation (“R&R”) (ECF No. 205), recommending that the motion for summary
judgment filed by Rivers Casino, (ECF No. 192) be granted. Plaintiff Andy Buxton ( Buxton )
filed timely objections to the R&R (ECF No. 206). Rivers Casino filed a response in opposition
to the objections (ECF No. 207). Buxton filed a motion for leave to file a supplement, which the
court construed as a reply brief. The matter is ripe for disposition.

Factual and Procedural Background
Rivers Casino is the sole remaining defendant in this case.

In the operative Thira

Amended Complaint (ECF No. 139), Buxton asserts that Rivers Casino engaged in a civil
conspiracy with other defendants to deny his rights as protected by the First, Fifth, Sixtn and
Fourteenth Amendments to the U.S. Constitution.

Buxton’s theory is that Rivers Casino

provided falsified documents to agents of the Commonwealth Attorney General’s Office that
1

Case 2:15-cv-01653-JFC-CRE Document 210 Filed 03/04/20 Page 2 of 7

were thereafter used in criminal proceedings against him.
Rivers Casino explained in its concise statement of material facts (“CSMF”) (ECF No.
194) that it supplied documents and video surveillance footage about Buxton’s gambling
activities in response to two subpoenas from a Pennsylvania grand jury, and one subpoena from
the Allegheny County Court of Common Pleas.1 Rivers Casino asserts it provided true and
correct copies of the items requested therein. (ECF No. 194

18-21). Rivers Casino asserts that

it does not have any reason to believe that the information it provided in response to the
subpoenas was inaccurate in any respect. (ECF No. 194

22). Aside from providing responses

to the subpoenas, Rivers Casino had no involvement in any hearing or proceeding related to
Buxton. (ECF No. 194 f 17).
Buxton filed an affidavit and a response to the CSMF which included rambling denials of
the relevant paragraphs. (ECF Nos. 200, 201). In the R&R, the magistrate judge explained that
conclusory or speculative denials, not based on facts within the personal knowledge of the
witness, may not be considered in opposing summary judgment. The magistrate judge observed
that Buxton had been put on notice of his obligation by an order dated July 19, 2019 (ECF No.
184).^The magistrate judge concluded that Buxton failed to point to any record evidence that
would create a genuine dispute about the accuracy of Rivers Casino’s CSMF.
On the merits, the magistrate judge concluded that Buxton’s § 1983 civil conspiracy
claim failed for two reasons: (1) Rivers Casino was not a state actor, and did not act ‘ in concert
t#with” state officials merely by responding to a subpoena; and (2) there was no evidence of any
1 There were two grand jury subpoenas from the Commonwealth of Pennsylvania Statewide Investigative Grand
Jury dated September 10, 2012, and November 8, 2012, that relate to Plaintiffs gaming activity at the casino. The
first requests information dated from September 1, 2012, through September 12, 2012; the second requests
information over a larger timeframe, May 1, 2012, to November 8, 2012. The third subpoena was issued by the state
trial judge on October 2, 2014, in conjunction with two state court cases in the Court of Common Pleas of Allegheny
County, Pennsylvania Criminal Division: Commonwealth v. Andy Buxton, Case No. 12834-2013 and
Commonwealth v. Carl Buxton, Case No. 151-2014, (hereinafter, the “State Court Subpoena ). The State Court
Subpoena directed Rivers Casino to provide “all video surveillance footage pertaining to gaming activity for Andy
and Carl Buxton from 2010 through 2014.” (ECF No. 194 H 14).

2

Case 2:15-cv-01653-JFC-CRE Document 210 Filed 03/04/20 Page 4 of 7

players card numbers.2 Buxton contends that the video does not depict him gambling $275,295.
Buxton reasons that because'the evidence was false and incomplete, it can be inferred that Rivers
Casino acted in bad faith and malice and agreed with the state in providing that information, such
that his conspiracy claims should be decided by a jury. The court concludes that these objections

Lid U
lack merit.

jwvl

KIM'

^

HeumW'UM

The magistrate judge properly applied the rules governing responses to summary ^ Q
l/~>

judgment. At the summary judgment stage, Buxton cannot merely accuse Pavers Casino of
-

. ,

providing inaccurate, fabricated or incomplete information. Instead, he must come forward with
actual admissible evidence in support of that position. The court’s order of July 19, 2019,
specifically instructed Buxton that “all affidavits, opposing or counter affidavits must be based
upon the personal knowledge of the person executing the affidavit.” (ECFNo. 184). That order
also instructed Buxton that he was required to comply with Local Rule 56.C in responding to the
CSMF, including appropriate citations to the record setting forth the basis for denials of any fact.
Id. Buxton was warned that Rivers Casino’s proposed facts “will for the purpose of deciding the
motion for summary judgment be deemed admitted unless specifically denied or otherwise
controverted.” IdfrBuxton failed to properly contest any of Rivers Casino’s facts by citation to
other facts in the record and did not submit his own appendix (other than his personal affidavit.)
Buxton may have seen Rivers Casino personnel in the courtroom on several occasions. Buxton
did not, however, present any admissible evidence to create a genuine dispute about whether the
documents or video surveillance footage provided by Rivers Casino had been falsified or that
Rivers Casino entered into any kind of agreement other than its response to the subpoenas. His
2 In its response to the objections, Rivers Casino explains that an individual can have multiple Player Club Cards,
but all cards will have that individual’s patron identification number. (ECF No. 207 at 2 n.l). In his reply, Buxton
argues that he was issued numerous cards without his authorization and not all were registered under his
identification number. (ECF No. 208). This dispute is not material. As the magistrate judge recognized, there is no
evidence in the record from which a reasonable jury could conclude that River Casino conspired with the state to
violate Buxton’s civil rights.

4

^
|(|? ^7^0 /awy

Case 2:15-cv-01653-JFC-CRE Document 210 Filed 03/04/20 Page 6 of 7

Conclusion
For the reasons set forth above, the magistrate judge’s January 15, 2020 R&R (ECF No.
205), will be adopted as the opinion of this court as supplemented herein.

Plaintiff Andy

Buxton’s objections to the R&R (ECF No. 206) will be DENIED. The motion for summary
judgment filed by Rivers Casino (ECF No. 192) will be GRANTED. This case will be marked
closed.
An appropriate order and judgment will be entered.

BY THE COURT:
/s/ Jov Flowers Conti
Joy Flowers Conti
Senior United States District Court Judge

Dated: March 4, 2020

6

Case 2:15-cv-01653-JFC-CRE Document 210 Filed 03/04/20 Page 7 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
ANDY BUXTON,
Plaintiff,
v.
RIVERS CASINO.
Defendant.

)
)
)
)
)
)
)
)

Civil Action No. 2:15-cv-1653

ORDER

AND NOW, this 4th day of March, 2020, it is hereby ORDERED that for the
reasons set forth in the memorandum opinion: the magistrate judge’s January 15, 2020 R&R
(ECF No. 205), will be adopted as the opinion of this court as supplemented therein. Plaintiff
Andy Buxton’s objections to the R&R (ECF No. 206) are DENIED. The motion for summary
judgment filed by Rivers Casino (ECF No. 192) is GRANTED. This case shall be marked
closed.

BY THE COURT:
/s/ Jov Flowers Conti
Joy Flowers Conti
Senior United States District Court Judge

cc:

ANDY BUXTON
MS 1885
SCI Mercer
801 Butler Pike
Mercer, PA 16137
(via U.S. First Class Mail)

7

.^

Case 2:15-cv-01653-JFC-CRE Document 211 Filed 03/04/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
ANDY BUXTON,
Plaintiff,
v.

RIVERS CASINO,
Defendant.

)
)
)
)
)
)
)
)

Civil Action No. 2:15-cv-1653

JUDGMENT

AND NOW, this 4th day of March, 2020, JUDGMENT is hereby entered in favor
of defendant Rivers Casino and against plaintiff Andy Buxton.

BY THE COURT:
/s/ Jov Flowers Conti
Joy Flowers Conti
Senior United States District Court Judge

cc:

ANDY BUXTON
MS 1885
SCI Mercer
801 Butler Pike
Mercer, PA 16137
(via U.S. First Class Mail)

1

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1575

ANDY BUXTON,
Appellant
v.
IVA C. DOUGHERTY; KATIE WYMARD; RICHARD MILLER;
CHRISTOPER ANTONUCCI; ROBERT MARSILI; AMBER NOEL; SCOTT SHANK;
RIVERS CASINO; ATTORNEY GENERALS OFFICE;
ANDREW TOTH; DAN SAMMARTINO
(W.D. Pa. No. 2:15-cv-01653)
SUR PETITION FOR REHEARING
Present:

SMITH, Chief Judge, and McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO,
BIBAS, PORTER, MATEY, and PHIPPS, Circuit Judges

The petition for rehearing filed by Appellant in the above-captioned case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc is DENIED.
By the Court,
s/Stephanos Biba's
Circuit Judge
Dated: November 2, 2020
Lmr/cc: All Counsel of Record

o

